DEPARTMENT OF HOMELAND SECURITY
   Office of Inspector General



   Progress Made In Strengthening DHS 

 Information Technology Management, But 

            Challenges Remain 





OIG-08-91                  September 2008
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                        September 4, 2008


                                              Preface

The Department of Homeland Security, Office of Inspector General, was established by the
Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of
our oversight responsibilities to promote economy, efficiency, and effectiveness within the
department.

This report addresses the strengths and weaknesses of Information Technology management
activities as carried out by the department’s Office of the Chief Information Officer. It is based
on interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. It is our hope that
this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 




Executive Summary ........................................................................................................................ 1 


Background ..................................................................................................................................... 2 


Results of Audit .............................................................................................................................. 3 


     CIO Organizational Structure Improved................................................................................... 3 


     Challenges Remain for Effective Management of IT ............................................................. 15 


     DHS IT Management Scorecard Ratings................................................................................ 23 


Recommendations......................................................................................................................... 31 


Management Comments and OIG Analysis ................................................................................. 32 



Appendices
     Appendix A:          Scope and Methodology................................................................................... 34 

     Appendix B:          Management Comments to the Draft Report ................................................... 36 

     Appendix C:          Related Reports on DHS IT Management........................................................ 38 

     Appendix D:          Major Contributors to this Report .................................................................... 40 

     Appendix E:          Report Distribution ........................................................................................... 41 


Abbreviations
     CFO                 Chief Financial Officer 

     CIO                 Chief Information Officer 

     CPIC                Capital Planning and Investment Control 

     C&A                 Certification and Accreditation 

     DHS                 Department of Homeland Security 

     EAB                 Enterprise Architecture Board         

     E-Gov               Electronic-Government

     FISMA               Federal Information Security Management Act 

     GAO                 Government Accountability Office 

     ICE                 U.S. Immigration and Customs Enforcement 

     IRB                 Investment Review Board 

     IT                  Information Technology             

     ITAR                Information Technology Acquisition Review 

     ITSO                Information Technology Services Office 

     MD                  Management Directive             

     OCIO                Office of the Chief Information Officer 

Table of Contents/Abbreviations 


  OIG        Office of Inspector General 

  OMB        Office of Management and Budget 

  OPM        Office of Personnel Management 

  TSA        Transportation Security Agency         

  USCG       United States Coast Guard 

  USCIS      U.S. Citizenship and Immigration Services 


Figures
  Figure 1   Office of the Chief Information Officer Organization Chart............................... 2 

  Figure 2   DHS Management Directive 0007.1 Changes ..................................................... 4 

  Figure 3   Management Directive 0007.1 CIO Responsibilities .......................................... 6 

  Figure 4   DHS CIO Council Functions ............................................................................... 8 

  Figure 5   IT Acquisitions Review Process Flow............................................................... 13 

  Figure 6   DHS OCIO Staffing Levels: Comparison of 2004 and 2007 ............................ 16 

  Figure 7   Major Component CIO IT Budget Authority .................................................... 20 

  Figure 8   Progress Levels for OIG Scorecard Elements ................................................... 24 

OIG 

Department of Homeland Security
Office of Inspector General
Executive Summary
                     Creating a unified information technology (IT) infrastructure for effective
                     integration and agency-wide management of IT assets and programs
                     remains a challenge for the Department of Homeland Security (DHS)
                     Chief Information Officer (CIO). In our 2004 report, Improvements
                     Needed to DHS’ Information Technology Management Structure (OIG-04-
                     30), we said that the DHS CIO was not well positioned with sufficient
                     authority or staffing to manage IT assets and programs. We identified
                     actions that DHS could take to improve IT investment oversight.

                     We conducted a follow-up audit to examine DHS’ efforts to improve its IT
                     management structure and operations. The objectives of this audit were to
                     identify the current DHS CIO management structure and changes made to
                     roles, responsibilities, and guidance for managing IT; determine whether
                     current IT management practices and operations are effective to ensure
                     strategic management of IT investments; and to assess progress in
                     addressing our prior recommendations.

                     DHS budgets more than $5 billion a year for its IT programs. Since its
                     formation in 2003, DHS has faced significant challenges to establish an
                     effective IT management structure to oversee and guide the department’s
                     IT resources. However, DHS has taken steps over the past year to
                     strengthen the CIO’s role for centralized management of IT. Specifically,
                     the DHS CIO attained greater authority for leading component CIOs
                     toward a unified IT direction. In addition, the DHS CIO has gained
                     oversight of IT acquisitions by establishing new policies and improving IT
                     investment governance functions. As a result, the DHS CIO is better
                     positioned to guide the department’s IT resources. However, continued
                     CIO staffing shortages and inconsistent component-level IT budget
                     practices impede progress. Additionally, DHS’ IT management
                     capabilities at the component level, such as IT strategic planning, have not
                     been fully implemented. As a result, the DHS CIO remains hindered in
                     his ability to fully integrate IT management practices to ensure IT
                     investments fulfill mission and infrastructure consolidation goals.

                     DHS must address these challenges to achieve its IT goals. We
                     recommend that the DHS CIO update the CIO office’s staffing plan,
                     ensure that components submit comprehensive budgets, and develop and
                     maintain IT strategic plans and enterprise architectures aligned to DHS’
                     mission.

    Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                              Page 1 

Background
                          The Homeland Security Act of 20021 established a Chief Information
                          Officer (CIO) to govern information technology (IT) across the newly
                          created Department of Homeland Security (DHS). The primary goal of
                          the DHS CIO is to transform the department into a high-performing and
                          integrated organization by providing effective technologies and systems to
                          meet DHS’ mission needs.

                          The 22 component agencies that currently make up DHS rely extensively
                          on IT to perform mission operations, as evidenced by DHS’ fiscal year
                          2008 IT budget of over $5 billion. Given the size and significance of
                          DHS’ IT investments, effective management of department-wide IT
                          expenditures is critical.

                          The DHS CIO reports to the Under Secretary for Management and is
                          supported by the Office of the CIO (OCIO), which comprises the Deputy
                          CIO, a Chief of Staff, and a full time OCIO staff with contractor support.
                          The mission of the DHS OCIO is to collaborate with DHS component-
                          level CIOs to align the IT systems and infrastructure in support of
                          missions and activities across the department. The OCIO is organized into
                          five major offices, as depicted in Figure 1 below.
                                                   Office of t he Chief Infor
                                                                          formation Office
                                                                                      ficerr Organizatio
                                                                                                     tion Ch
                                                                                                          Chaart

                                                                              UNDER SECRETARY FOR
                                                                                  MANAGEMENT

                                                                                  DEPUTY UNDER
                                                                                   SECRETARY



                                                                                  Chief Information
                                                                                       Officer
                                                                                         (CIO)




                                                                                       Deputy
                                                                                  Chief Information                        Chief of Staff
                                                                                        Offic er
                                                                                        Officer




                                                                                                          Information                   Office on Accessible
                             Enterprise Business          Office of Applied       Information Security
                                                                                                          Technology                        Systems and
                             Management Office              Technology                   Office
                                                                                                         Services Office                     Technology




                          Figure 1: Office of the Chief Information Officer Organization Chart

                          The Enterprise Business Management Office oversees IT budget functions
                          and manages the department’s IT investments to align to mission priorities
                          and planned targets. The Office of Applied Technology has primary
1
    Public Law 107-296, November 25, 2002.

         Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                                       Page 2 

                           responsibility for the department’s enterprise architecture. The
                           Information Security Office provides oversight to ensure a secure and
                           trusted computing environment that enables the department to effectively
                           share information in support of its mission. The Information Technology
                           Services Office is responsible for managing the IT infrastructure including
                           network, email, Internet, telecommunications infrastructure, and end-user
                           services to users in the DHS headquarters offices. The Office of
                           Accessible Systems and Technology leads department-wide
                           implementation of Section 508 of the Rehabilitation Act of 1973,2
                           providing technical support and training to ensure DHS employees and
                           customers with disabilities have equal access to information and data.

                            In 2004, we reported challenges in the DHS CIO’s ability to effectively
                            manage IT resources and capabilities to fulfill the department’s diverse
                            and unique missions.3 Specifically, we found that the DHS CIO did not
                            have sufficient oversight of IT investments or support to execute central
                            IT direction due to a lack of authority within the DHS leadership
                            structure. Additionally, the CIO did not have sufficient staffing or a
                            defined component-level CIO reporting relationship. Based on these
                            findings, we recommended that DHS:

                               •	 Centralize IT support services, provide the CIO with authority to
                                  influence department-wide IT investments and strategies;
                               •	 Document and communicate the roles of component-level CIOs;
                               •	 Provide the DHS OCIO with the necessary staffing resources; and
                               •	 Assign the DHS CIO a key role in all levels of the department’s
                                  investment review process.


Results of Audit
CIO Organizational Structure Improved

                           DHS has improved the DHS CIO’s role in managing IT by better defining
                           CIO responsibilities and reinforcing authority over IT department-wide.
                           In addition, DHS has strengthened the DHS CIO’s management structure
                           and reporting relationships to the component-level CIOs. As a result, the
                           DHS CIO is better positioned to meet the department’s IT challenges and
                           govern shared IT programs and services as well as to help better direct the
                           components’ mission and supporting technologies in a concerted manner.



2
    29 U.S.C. Section 794d.

3
    Improvements Needed to DHS’ Information Technology Management Structure, OIG-04-30, July 2004. 


         Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain

                                                     Page 3
DHS IT Management Roles and Responsibilities are Better Defined

                            Federal regulations provide guidance for establishing an effective
                            management structure to govern IT, which has become increasingly
                            critical to federal agency success. The Clinger-Cohen Act of 19964
                            requires that federal departments and agencies establish CIOs to institute,
                            guide, and oversee frameworks for managing IT department-wide.
                            Additionally, the Homeland Security Act of 20025 sets forth
                            responsibilities to execute IT planning, budgeting, infrastructure
                            management, systems development, IT human capital planning, and
                            support services functions. With these responsibilities, the DHS CIO
                            faces the complex challenge of managing a wide range of IT assets and
                            programs for the third largest department of the federal government.

                            According to federal guidelines, executive agencies benefit from
                            positioning the CIO as a member of the senior executive team with
                            sufficient accountability and responsibility to manage IT across
                            organizational units. However, in 2004, the DHS CIO was not a member
                            of the senior executive management team and lacked the authority to
                            strategically manage the department’s technology assets and programs. In
                            addition, there was no formal reporting relationship between the DHS CIO
                            and the CIOs of major component organizations, which hindered
                            department-wide support for a central IT direction.

                            In March 2007, DHS issued DHS Management Directive (MD) 0007.1:
                            Information Technology Integration and Management. This directive is
                            the principal document for leading, governing, integrating, and managing
                            the IT function throughout DHS. As illustrated in Figure 2, the directive
                            addressed several of the IT management challenges that we raised in 2004.
                             Prior IT Managemen
                                         agementt Chall
                                                  Challenges
                                                       enges               Man
                                                                           Managemen
                                                                              agementt Direc
                                                                                       Directtive 000
                                                                                                  0007.1
                                                                                                     7.1 Ch
                                                                                                         Changes
                                                                                                           anges

                             • DHS CIO lacked authority in            • Solidified
                                                                          olidified DHS C CIIO’s repo
                                                                                                 reporting
                                                                                                     rting relationsh
                                                                                                           relationshiip with
                               leadersh
                               leadership
                                       ip struct
                                          structure                     the Under
                                                                             Under Sec
                                                                                     Secrretary for Man
                                                                                                    Manaagement
                                                                                                         gement
                                                                      • Authori
                                                                          uthoritty establ
                                                                                    establishing departm
                                                                                                  department
                                                                                                          ent IT priorities
                                                                                                                  priorities,,
                                                                        policies
                                                                        policies,, proce
                                                                                   processses, sta
                                                                                                standards
                                                                                                   ndards,, guidelines,
                                                                                                            guidelines, and
                                                                        procedures
                                                                        procedures reinforce
                                                                                      reinforcedd
                             • Compon
                                 omponent
                                        ent CIO reportin
                                                reporting
                                                        g             • Overs
                                                                          versight
                                                                               ight of co
                                                                                       compo
                                                                                          mpon
                                                                                             nent CIO
                                                                                                   CIOss defined includin
                                                                                                                 including
                                                                                                                         g
                               relationship und
                                            undefined
                                               efined                   recrui
                                                                        recruiting,
                                                                              ting, and
                                                                                    and condu
                                                                                         conducting
                                                                                               cting performan
                                                                                                     performancce plann
                                                                                                                   planning
                                                                                                                        ing
                                                                        and feedback
                                                                            feedback
                                 verssight
                             • Over   ight of IT iin
                                                   nvest
                                                     vestments        • IT acq
                                                                           acqu
                                                                              uisition review authority defined
                               Ins
                               Insuffici
                                   fficient
                                        ent                           • IT bu
                                                                           budge
                                                                             dgett revi
                                                                                   review auth
                                                                                          autho
                                                                                              ority de
                                                                                                    defined
                                                                                                      fined

                            Figure 2: DHS Management Directive 0007.1 Changes



4
    Clinger-Cohen Act of 1996, Public Law 104-106, Division E, Section 5125, February 10, 1996.
5
    Homeland Security Act of 2002, Public Law 107-296, November 25, 2002.


         Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain

                                                                 Page 4
                 Specifically, the directive solidified the reporting relationship of the DHS
                 CIO to department leadership and established the CIO’s authority over IT
                 management. It also documented the component CIOs’ reporting
                 relationship to the DHS CIO.

                 DHS CIO’s Authority Expanded

                 The MD 0007.1 established the authority and responsibilities of the DHS
                 CIO. The directive sets forth DHS policy that the DHS OCIO shall serve
                 as the foundational DHS organization through which all departmental IT
                 activities and services will be overseen, defined, and measured. It also
                 clarifies the DHS CIO’s role to exercise leadership and authority over IT
                 policy and programs department-wide by giving the DHS CIO authority
                 to, among other things:
                     •	 Design the structure, processes, and systems to support both
                         departmental and component missions and goals in collaboration
                         with the CIO Council;
                     •	 Establish department IT priorities, policies, processes, standards,
                         guidelines, and procedures;
                     •	 Conduct IT program reviews and recommend program
                         improvements or corrective actions, including revocation of
                         delegated authorities and cancellation of IT acquisitions,
                         procurements, and initiatives;
                     •	 Implement an IT budget strategy for delivering and maintaining
                         enterprise IT solutions and services in conjunction with the DHS
                         Chief Financial Officer; and
                     •	 Establish training, development, and certification guidelines for
                         DHS IT professionals.

                 The directive has improved the DHS CIO’s authority within the existing
                 leadership structure by strengthening the position of the DHS CIO. One
                 senior official said that the DHS CIO has considerable cooperation and
                 assistance from DHS leadership to support the CIO’s direction for
                 managing IT department-wide.

                 DHS CIO and Component CIO Responsibilities Defined

                 Since our 2004 report, DHS has made demonstrable progress toward
                 strengthening the reporting relationships and responsibilities of the DHS
                 CIO in relation to the component-level CIOs. The MD 0007.1 establishes
                 a “dotted-line” reporting relationship from the component CIOs to the
                 DHS CIO. Figure 3 lists the major roles and responsibilities of the DHS
                 and component CIOs.



Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain

                                          Page 5
                                   Department CIO                                               Component CIOs

                  • Def
                      efine
                         ine the IT organiz    aniza ation inclu
                                                              includdin
                                                                     ing
                                                                       g   • Delive
                                                                               eliver IT seservices to support
                                                                                                             pport the co  compmpoonent
                                                                                                                                    nent
                    str
                    struc
                        uctu
                           turre, prprior
                                       ioriitie
                                            ties,
                                                s, polic
                                                    policiies, and           miss
                                                                             mission
                    stand
                      andar  ards
                                ds                                         • Comply with departmen      entt po
                                                                                                              policies
                                                                                                                   licies, pr
                                                                                                                           proc
                                                                                                                              oces
                                                                                                                                 esse
                                                                                                                                    ses,s,
                  • Lead comp     mpononeent CI CIOsOs,, iin
                                                           nclud
                                                             cludin
                                                                  ing
                                                                    g        standards, an  andd guid
                                                                                                 guidelin
                                                                                                       elines
                                                                                                            es
                    recruiting
                             ting, perfo
                                     performarman  nce revie
                                                          review w, and
                                                                    and    • Collab
                                                                                llabo orate with
                                                                                             with DHS CIO to ensu     ensurere
                    dele
                    de  lega
                           gatin
                               tingg auth
                                      author oritie
                                                ities
                                                    s                        effe
                                                                             effect
                                                                                  ctiv
                                                                                    ivene
                                                                                       enessss of IT pro
                                                                                                      programs
                                                                                                            rams and  and reso
                                                                                                                           resoururce
                                                                                                                                   ces s fo
                                                                                                                                         for
                  • Adviseise anand repo
                                       report rt to senior-l
                                                           or-level
                                                                evel         ent
                                                                             enter
                                                                                erpri
                                                                                    pris
                                                                                       se IT solut
                                                                                                 lutiions
                                                                                                      ons
                    off
                    offiicia
                         cialls onon IT                                    • Implem
                                                                              mpleme   ent the compon
                                                                                                componen   ent- t-lev
                                                                                                                  leve el EA an
                                                                                                                              and IT
                  • Review
                      eview of compo componen   nentsts’’ IT budg
                                                                udgeets,     st
                                                                             stra
                                                                               rate
                                                                                  tegi
                                                                                    gicc plan
                    ac
                    acququisit
                            isitiions, and
                                        and pro programs                   • Facilit
                                                                              acilitat
                                                                                     atee communic
                                                                                             mmunica   ation betw
                                                                                                                between com  componennentt
                  • Lead
                      ead CI CI O Coun ounci cill an
                                                  andd EA Board              hea
                                                                             headsds and the DHS CI    CIO and CIO Co       Coununcil
                                                                                                                                   cil
                  • Establish
                         ablish the depart        rtmen
                                                    mentt-lev
                                                           -levelel        • Submit IT bu  budg
                                                                                              dget
                                                                                                 et and acquis
                                                                                                          acquisiitio tion
                                                                                                                         ns for
                                                                                                                             for
                    inf
                    infoormation sec   securi rity
                                                 ty pr
                                                    proograramm              departm tmen
                                                                                        entt CIO review
                  • Establis
                         ablish   h training guidan idance                 • Par
                                                                               artic
                                                                                 ticiipa
                                                                                      pate
                                                                                         te in CIO
                                                                                               CIO Co Coun
                                                                                                        unci cill a
                                                                                                                  annd EA Boa
                                                                                                                            Board
                                                                           • Dev
                                                                               evelo
                                                                                  elop p a co
                                                                                           comp
                                                                                              mpone
                                                                                                  onentnt-le
                                                                                                          -levvel ininfo
                                                                                                                       forma
                                                                                                                         rmattio
                                                                                                                               ion
                                                                                                                                 n security
                                                                                                                                          rity
                                                                             pro
                                                                             proggram
                                                                                   ram

                 Figure 3: Management Directive 0007.1 CIO Responsibilities

                 The directive gives the DHS CIO the authority to provide component-
                 level CIOs written performance objectives at the start of the performance
                 cycle, provide input to their rating official on their accomplishments
                 against these objectives, and approve bonus or award recommendations.
                 To solidify department-level oversight, the DHS CIO has the authority to
                 perform an annual assessment of each component’s functional
                 performance. The DHS CIO’s oversight role is further strengthened with
                 the ability to delegate authorities to component CIOs to ensure appropriate
                 administration of mission services. In addition, component heads must
                 also collaborate with the DHS CIO in recruiting and selecting key IT
                 officials by seeking DHS CIO approval on the qualification standards for
                 positions, candidates identified for consideration, and final selections.

                 Component CIOs expressed support for the current DHS CIO reporting
                 structure, stating that the degree of oversight is well balanced for IT
                 planning and management. The current reporting relationship to the DHS
                 CIO does not create excessive departmental oversight of component
                 operations. For example, one component CIO stated they are able to
                 effectively carry out their component-level IT leadership responsibilities
                 in parallel to reporting to the DHS CIO.

                 Increased Oversight of IT Budgets

                 The MD 0007.1 also provides the DHS CIO with greater authority over
                 component-level IT budgets. Starting in fiscal year 2009, component
                 CIOs must prepare a separate IT budget across all programs and activities
                 within the components. Component heads are to submit these budgets to
                 the DHS CIO for review and approval. Both the DHS OCIO and
                 component-level CIOs support the new budget process. DHS OCIO
                 officials said the increased budget review responsibilities will greatly

Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain

                                                              Page 6
                         improve the DHS CIO’s level of leadership and authority over IT
                         programs department-wide. Most component CIOs said that the process
                         will increase their ability to gain oversight of component-level IT
                         spending by providing them the authority needed to gain access to IT
                         budget data throughout their agency. According to the U.S. Citizenship
                         and Immigration Services (USCIS) CIO, the IT budget requirements set
                         forth in the MD 0007.1 are providing greater visibility into actual IT
                         spending that previously might not have been categorized as IT spending.
                         Additionally, a 2007 Office of Inspector General (OIG) report6 said that
                         the Transportation Security Administration (TSA) had little centralized IT
                         budget authority. However, according to the TSA Deputy CIO, the
                         directive has improved visibility into IT spending.

                         The DHS OCIO has coordinated with component CIOs to ensure their
                         understanding of the budget review process. For example, the DHS OCIO
                         has conducted program reviews and held informal meetings with
                         components to discuss IT budget data and answer their questions about
                         the process. DHS OCIO officials said that this has been especially helpful
                         for components with large budgets that may have more items for review.

                         The DHS CIO also provided a briefing of the fiscal years 2010 to 2014 IT
                         budget review process at the January 2008 CIO Council meeting. The
                         briefing was well received by component CIOs, who said that the
                         guidance provided will help align and consolidate IT throughout the
                         department. For example, the budget guidance identified specific
                         enterprise IT targets, such as common data center and network
                         technology, which will drive the department to move to a common
                         infrastructure. These efforts by the DHS OCIO have increased
                         understanding of the budget process in general and, more specifically, of
                         what the components are expected to provide to DHS for their IT budget
                         every year. As a result, components are better able to create component-
                         level budgets that meet department expectations and that can be rolled up
                         to allow for improved planning of department-wide IT spending.

IT Investment Management Improvements

                        DHS has improved its IT investment management through more effective
                        governance bodies and activities. In addition, the DHS CIO’s role in the
                        department’s investment review process has increased. As a result, the
                        DHS CIO has greater oversight of department-wide IT investments,
                        increasing his ability to achieve centralized management and awareness of
                        all IT systems and initiatives.

6
 DHS OIG, Information Technology Management Needs to Be Strengthened at the Transportation Security
Administration, OIG 08-07, October 2007.

       Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                  Page 7 

IT Governance Initiatives Increase CIO IT Management Capabilities

                        According to federal guidance and departmental directives, the CIO is
                        required to implement IT governance structures to ensure efficient and
                        effective use of technology resources.7 The DHS CIO relies on a variety
                        of IT investment governance structures and functions to ensure
                        compliance with IT management policies and promote centralized IT
                        management. Additionally, the DHS OCIO has initiated IT governance
                        improvements to promote centralized IT oversight and increase the DHS
                        CIO’s ability to perform IT management functions. Key elements of the
                        DHS IT governance approach involve the CIO Council, an Investment
                        Review Board, the Capital Planning and Investment Control process, an
                        Enterprise Architecture Board, and Portfolio Management process.

                        DHS CIO Council

                        The DHS CIO Council was established to set vision and strategy for the IT
                        function and information resources within DHS. Membership is
                        composed of the DHS CIO and Deputy CIO, who chair the council, and
                        all component-level CIOs. The council provides a forum for
                        communication and coordination among its members to achieve
                        departmental IT infrastructure consolidation goals. The council also
                        provides recommendations for the department IT strategic plan and
                        establishes policies, processes, best practices, performance measures, and
                        decision criteria for managing the delivery of IT services. Figure 4 lists
                        the eight major functions of the CIO Council.

                                                                  DHS CIO Council Functions

                          •   DHS-w -wiid e IT stra
                                                 ratte gic p lan n ing                    •   Op portortu nities fo r co or dinat
                                                                                                                              nation, co nsoliolid atio n,
                          •   DHS IT go ver ver na nce str
                                                         str uctu
                                                              ctu re s a nd                   a n d in
                                                                                                     in form atio n sh
                                                                                                                    sh ar
                                                                                                                        ariing with o the
                                                                                                                                       herr agen
                                                                                                                                             ag enccie s
                              p roc
                                 oces
                                    essse s                                               •   Invo
                                                                                               nvol ve me n t wi th hi gh vi sibi lity I T p rojec
                                                                                                                                              ojectts
                          •   Inform
                                 orma tion re sourcurce m an agemgeme   en t pol
                                                                             po licies,
                                                                                    es,       th
                                                                                              tha at ha ve D HS- wid e i mpl icatio ns
                              p roc
                                 oces
                                    essse s, b est prac
                                                   pr acttice s, p e rform an ce          •   Esta bli shme n t of a pprop
                                                                                                                         proprr iate wwo
                                                                                                                                       or king gr ou ps
                              me as ure s, an d dedeccisi on cr iter
                                                                  eriia                       tie
                                                                                              ti ed to CIO p rio rititie
                                                                                                                       es
                          •   A dva nce me nt o f DHS IT pr ior iti   tie
                                                                        es                •   C om mun ica tion pr   prog
                                                                                                                        ogrra ms fo r co ns
                                                                                                                                         nsttitu en
                                                                                                                                                 enccies



                        Figure 4: DHS CIO Council Functions




7
  E-Government Act of 2002, Public Law No. 107-347, Section 3603 establishes the CIO Council. The Clinger-
Cohen Act of 1996; OMB Circular A-130, Management of Federal Information Resources; and OMB Circular A-11,
Planning, Budgeting, Acquisition and Management of Capital Assets provide regulations and guidance for
investment review and capital planning activities. DHS Management Directive 0007.1, IT Integration and
Management, establishes the authority and responsibilities of the DHS CIO. DHS Management Directive 1400,
Investment Review Process, integrates capital planning, budgeting, and acquisition, and management of IT
investments to ensure public resources are wisely invested.

      Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain

                                                               Page 8
                         In 2004, we reported that the council had evolved into an unstructured
                         information reporting session for CIOs.8 Lacking a formal structure,
                         meetings were spent providing status updates on IT activities and issues
                         within their organizations rather than focusing on strategic-level
                         collaboration and decision-making. However, the CIO Council has begun
                         to function more effectively as the primary coordination entity between
                         the department-level and component-level CIOs, and has gained a positive
                         reputation as a productive forum for strategic-level collaboration and
                         decision-making since the time of our 2004 report. As a result, the CIO
                         Council has increased the CIOs ability for strategic-level management of
                         IT and collaboration among component stakeholders.

                         In November 2007, the DHS CIO instituted a secondary, more informal
                         group to improve the effectiveness and efficiency of the CIO Council and
                         promote increased collaboration among component CIOs. This group,
                         referred to as the “Gang of Seven,” is composed of CIOs from the seven
                         major components.9 The group’s goal is to build consensus among the
                         largest stakeholders on programs that have potential for DHS-wide impact
                         or on departmental IT policies and standards.

                         Several component CIOs said that having the opportunity to coordinate
                         within this smaller subset has improved the productivity in larger meetings
                         of the full council. For example, component CIOs used these meetings to
                         coordinate the development of common screening technology for the
                         department and identify concrete steps for the near term. This type of
                         coordination has proven especially critical when new technologies or
                         strategic-level IT direction are being considered.

                         According to DHS OCIO leadership, the CIO Council has become a more
                         effective mechanism for building consensus among components and
                         providing an advisory board for the DHS CIO. A senior IT official said
                         the council is functioning effectively as a primary means of
                         communication across the component CIOs. As a result of the efforts of
                         the council, several component CIOs said the relationship between
                         component CIOs now is very collaborative, resulting in greatly improved
                         productivity and communications. For example, CIOs have
                         comprehensive discussions on their stewardship roles and the IT
                         infrastructure process.



8
 Improvements Needed to DHS’ Information Technology Management Structure, OIG-04-30, July 2004.
9
 The seven major operational components of DHS are the Transportation Security Administration (TSA), U.S.
Customs and Border Protection (USCBP), U.S. Citizenship and Immigration Services (USCIS), U.S. Immigration
and Customs Enforcement (USICE), U.S. Secret Service (USSS), the Federal Emergency Management Agency
(FEMA), and U.S. Coast Guard (USCG).

       Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                   Page 9 

                 Investment Review Board

                 Currently, the Office of the Chief Procurement Officer and the DHS CIO
                 are collaborating to refine the investment review process and the
                 corresponding DHS Management Directive 1400, Investment Review
                 Process. One key aspect of this effort involves the Investment Review
                 Board (IRB), the governance board responsible for providing senior
                 managers with visibility, oversight, and accountability for investments.
                 Although the DHS CIO does not directly oversee IRB activities, he plays a
                 major role in reviewing IT investments that reach the IRB threshold. The
                 revised process incorporates extensive input from the OCIO and will
                 include the CIO in the investment review process. This input should
                 ensure further CIO involvement in IT investment reviews.

                 Capital Planning and Investment Control

                 The DHS OCIO is working to enhance the Capital Planning and
                 Investment Control (CPIC) business case submission process. As part of
                 the CPIC process, components are required to submit business plans for IT
                 investments to demonstrate adequate planning. To ensure that IT
                 investments are based on a solid business case, the OCIO established a
                 group to govern the CPIC process throughout the department. Projects are
                 reviewed for approval and progress, primarily based on “Exhibit 300”
                 business case documentation, which is developed for submission to the
                 Office of Management and Budget (OMB) pursuant to the annual budget
                 process.

                 To aid the CPIC process, CPIC administrators from each component act as
                 liaisons between the department and the component programs. These
                 administrators meet every 2 weeks with the DHS OCIO to review issues
                 and identify process improvements. Additionally, the OCIO offers
                 training for CPIC administrators, including lessons learned that are
                 captured annually. However, one challenge for the OCIO has been that
                 the administrators are sometimes contractors rather than government
                 employees. Because historically there has been high turnover with the
                 contractors, the OCIO must spend extra time retraining and re-educating
                 the new CPIC administrators. Further, contractors sometimes lack access
                 and communication channels to component leadership, limiting the
                 effectiveness of the group for components with contractor representation.

                 Enterprise Architecture Board

                 The Enterprise Architecture Board (EAB) is an investment review
                 mechanism that has improved department-wide IT management functions.
                 Consistent with the investment review process, EAB is responsible for

Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                          Page 10 

                 reviewing and making recommendations to the DHS CIO for approving
                 individual investments. Also, the board is responsible for ensuring that
                 each IT investment aligns with the DHS enterprise architecture and is
                 approved before submission to the CIO for final approval and inclusion in
                 the annual budget submission. Finally, the EAB is responsible for
                 directing, overseeing, and approving the DHS enterprise architecture and
                 ensuring compliance with OMB federal enterprise architecture guidance.
                 Membership is composed of the DHS CIO and Deputy CIO, component
                 CIOs, Chief Financial Office designee, Chief Procurement Office
                 designee, business unit and program representatives, information officers,
                 and directorates/organizational elements.

                 Portfolio Management

                 To augment investment review processes, the OCIO has recently begun a
                 portfolio management program. The DHS portfolio management
                 approach aims to establish portfolios, based on DHS mission areas,
                 strategic goals, and objectives. Several pilot portfolio initiatives were
                 conducted by the DHS CIO in fiscal year 2007 to prepare for department-
                 wide implementation in fiscal year 2008. At the time of our review, 22 IT
                 portfolios have been established by the DHS CIO, with 6 assigned to
                 Portfolio Managers. One primary goal of the portfolio program is to align
                 IT investments with strategic objectives across all of DHS. As a result,
                 the DHS CIO will increase visibility of IT spending, thereby more
                 effectively managing all IT investments across the department.

                 Absent this, there has been limited visibility into relationships between IT
                 assets and investments across the department. Going forward, the DHS
                 CIO will designate a portfolio manager for each of the DHS IT portfolios
                 to provide recommendations and perform analysis for investments within
                 their assigned portfolio. The DHS IT portfolio management program will
                 augment existing budget, acquisition, and review processes and decision-
                 forums. Within each portfolio, target architecture and transition plans will
                 be established to ensure that investments within portfolios effectively
                 meet mission goals and objectives.

                 Once portfolio management is implemented, the DHS CIO will increase
                 line-of-sight visibility across all IT investments and the ability to eliminate
                 spending on duplicative IT assets, to integrate and manage IT investments
                 agency-wide. According to one OCIO senior official, this process has
                 already been successful in giving the DHS CIO visibility into investments
                 and aligning them to mission and goals.




Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                          Page 11 

Increased DHS CIO Management Oversight of IT Acquisitions

                            The Clinger-Cohen Act of 1996 assigns CIOs responsibility for ensuring
                            effective acquisition of information technology resources.10 In 2004, the
                            DHS CIO did not have sufficient visibility or approval authority for
                            department-wide IT investments. Based on Management Directive 1400,
                            the DHS CIO’s primary IT investment review responsibility was limited to
                            “level-three investments,” which had a cost of $1-5 million annually or
                            lifecycle costs of $5-20 million.11 Therefore, the DHS CIO was not the
                            principal proponent for level-one and level-two investments, which are
                            critical programs with contract costs over $5 million and lifecycle costs
                            over $20 million. Rather, the IRB, headed by the Deputy Secretary, was
                            responsible for reviewing both non-IT and IT investments for levels one
                            and two. With this structure, the DHS CIO had minimal control over high
                            priority IT investments, limiting the ability for centralized management
                            and awareness of all IT systems and initiatives.

                            The DHS CIO has made progress by establishing an acquisition review
                            process to improve CIO oversight of IT spending. In November 2006, under
                            MD 0007.1, the DHS OCIO implemented a new IT acquisition review
                            (ITAR) process to review and approve all department-wide IT acquisitions
                            exceeding $2.5 million. The ITAR process steps are described in Figure 5.

                            Component CIOs must submit an acquisition request package to the DHS
                            OCIO for review and approval. An OCIO coordinator reviews the
                            package for completeness and provides it to OCIO subject matter experts
                            for evaluation. The CIO staff makes acquisition decisions on the request
                            package at their twice-weekly meetings. Following the OCIO’s review,
                            the Acquisition Review Board either approves the acquisition or sends it
                            back to the components with specific conditions for the component to
                            address. The DHS CIO Acquisition Review Board consists of the DHS
                            CIO direct reports. This body makes the final recommendation on an
                            acquisition request.




10
     Clinger-Cohen Act of 1996, Public Law 104-106, Division E, Section 5125, February 10, 1996.
11
     Department of Homeland Security, Management Directive 1400, Investment Review Process.


          Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                      Page 12 

                                       IT Acquisitions Review Process Flow

                                                                               Approved acquisition
                                          Submits acquisition
                                                                                can be submitted
                                              request
                   Component CIO                                                 for procurement




                                                                                     CIO approves
                                                                                     or rejects the
                   DHS CIO                                                            acquisition




                   OCIO                                                            Comments returned
                                         Request reviewed for
                   Coordinator                                                       and response
                                            completeness
                                                                                       prepared



                                       Reviewed in parallel by:
                   OCIO                •Enterprise Business
                                        Management Office
                   Directorates        •Office of Applied Technology
                                       •Information Security Office
                                       •Infrastructure Operations
                                       •Section 508 Program Office
                                       •Portfolio Management



                   DHS IT Portfolio Managers                  Portfolio Managers




                 Figure 5: IT Acquisitions Review Process Flow

                 Many of the larger component-level CIOs have assigned ITAR
                 coordinators to administer their IT acquisition packages. These
                 coordinators track and manage requests throughout the process and attend
                 regular coordinator meetings. According to a DHS OCIO official,
                 components that have implemented the process with assigned coordinators
                 are realizing greater benefits, such as shorter review times and fewer
                 conditions. For example, acquisition requests from coordinators resulted
                 in a review time of 16 days, as opposed to an average of over 30 days for
                 all requests. The TSA ITAR coordinator said that this approach has been
                 helpful, with significant benefits stemming from the quarterly coordinator
                 meetings, which provide opportunities for collaboration with other
                 components to share ideas.

                 The DHS CIO has taken steps to ensure effective implementation of the
                 ITAR process. For example, to obtain buy-in and participation, the OCIO
                 provided a draft of the MD 0007.1 to the components for review and
                 comment. Component-level CIOs provided feedback on how to improve
                 the process, as well as input on their concerns about the challenges
                 components would face to comply with process requirements. The OCIO
                 incorporated many of the components’ comments and suggestions into the
                 final version. In addition, the DHS CIO has also issued an ITAR Review

Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                            Page 13 

                 Guide that defines the major steps and responsibilities in the review
                 process.

                 The DHS CIO continues to communicate the ITAR process to
                 stakeholders to improve its execution. In January 2008, the DHS OCIO
                 held a meeting to educate components on the high-level goals of the ITAR
                 process. DHS OCIO officials also lead ongoing acquisition review
                 coordination meetings to gain additional feedback from components.
                 During these meetings, ITAR coordinators and stakeholders may raise
                 issues and identify process improvements for discussion, many of which
                 are addressed by the OCIO. For example, components must complete a
                 checklist as part of the acquisition package. Several components said that
                 the checklist, which contains 167 questions and requires a great deal of
                 time to complete, is too long. Although the checklist had already been
                 revised and shortened once, the OCIO plans to further update the
                 acquisition review questionnaire to make it easier for components to use.

                 Impact of Acquisition Review

                 Although the ITAR process has been operating for only 1 year, there is
                 early evidence that the DHS CIO has had a greater degree of impact on IT
                 decisions department-wide. For example, the OCIO reviewed 243
                 acquisitions within the ITAR process from November 2006 through
                 September 2007, totaling approximately $3.2 billion. According to budget
                 figures collected by the OCIO, these IT acquisitions reviewed accounted
                 for approximately 57% of the total DHS IT budget of $5.6 billion in fiscal
                 year 2007. In this same fiscal year, the review process identified 132
                 acquisitions, or 54% of the 243 submitted, that had issues components
                 needed to resolve.

                 Implementation of the ITAR process has increased the DHS CIO’s ability
                 to ensure program and project alignment with department-wide IT policy,
                 standards, objectives, and goals. For example, it has enabled the DHS
                 CIO to direct IT efforts toward the department’s primary infrastructure
                 goals, such as consolidating component networks and data centers.
                 Consolidation of component networks and data centers is an element of
                 the DHS CIO’s goal to establish “one infrastructure” for the department to
                 facilitate data sharing, security, and efficiency. Through the review
                 process, the CIO has validated component IT plans to ensure commitment
                 to move component-wide area network segments to a common network, as
                 well as to consolidate assets at the enterprise data centers and transition to
                 DHS’ Network Operations Center and Security Operations Center.

                 Additionally, the ITAR process has promoted enterprise architecture and
                 portfolio alignment by ensuring that IT initiatives adhere to established

Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                          Page 14 

                     targets and goals. The ITAR process has increased compliance with the
                     DHS enterprise architecture, enabling the DHS CIO to direct IT efforts to
                     align to target architecture goals. During the initial year of the ITAR
                     process, the number of programs reviewed by the EAB has increased 50%.
                     Additionally, the DHS OCIO directed components to conform to DHS
                     enterprise architecture standards during the review process. For example,
                     TSA planned to create an E-authentication solution for its Alien Flight
                     School Program. However, during the ITAR process, the OCIO
                     recognized that TSA’s needs could be met by using the solution that U.S.
                     Immigration and Customs Enforcement (ICE) created for its Student
                     Exchange Visitor Information System, thus preventing unnecessary
                     duplication.

                     Component-level CIOs also have benefited from the ITAR process, which
                     requires that component IT procurement requests be approved by the CIO
                     before they are completed by the acquisitions office. A TSA OCIO
                     official said that TSA has experienced benefits from the checkpoint
                     established within its procurement office to ensure that all IT acquisitions
                     below $2.5 million go through the required component-level review.
                     Consequently, the TSA CIO reviewed 113 requests under $2.5 million for
                     a total of $70.1 million during fiscal year 2007.

                     The TSA CIO has more visibility of IT initiatives and, therefore, the
                     ability to consolidate IT requirements and identify other opportunities to
                     decrease costs. The TSA OCIO already has identified opportunities to use
                     more enterprise licenses for products, such as security software, and
                     consolidate IT support contracts that were disorganized across the agency,
                     resulting in cost savings. TSA officials believe that this process has been
                     valuable and provides needed insight on agency-level IT spending and
                     initiatives.


Challenges Remain for Effective Management of IT

                     Although the DHS CIO has gained increased authority and oversight to
                     better manage department-wide IT investments, significant challenges
                     remain. Specifically, DHS OCIO staffing levels remain insufficient to
                     effectively carry out new IT management responsibilities. Further,
                     component CIOs lack visibility over IT spending, hindering their ability to
                     meet the department’s IT budget reporting requirements. Finally, benefits
                     of the IT acquisitions review process are limited until all department
                     programs and CIOs comply with new requirements defined in MD 0007.1.
                     These challenges must be addressed for the DHS CIO to achieve benefits
                     of centralized management of the department’s IT, such as cost savings
                     and infrastructure consolidation.

    Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                              Page 15 

DHS CIO’s Staffing Levels Remain Insufficient

                           In 2004, the DHS CIO had limited staff resources to assist in carrying out
                           the IT management activities needed to support the department. Although
                           DHS has provided the DHS CIO with additional resources, the OCIO
                           continues to experience significant staffing shortages. This has limited the
                           DHS CIO’s ability to effectively execute department-wide IT management
                           functions, such as the ITAR process.

                           In 2004, we reported that DHS CIO staff resources were inadequate.12 At
                           that time, the CIO was authorized to hire 65 employees to support over
                           180,000 employees. However, only 49, or approximately 75%, of those
                           positions were filled. In December 2007, the DHS OCIO was authorized
                           to hire 111 employees across the five offices within the OCIO to support
                           over 208,000 employees. However, only 71, or approximately 64%, of the
                           authorized positions were filled. Figure 6 shows a comparison of the 2004
                           staffing levels to the levels in 2007.
                                            DHS OCIO Staffing Comparison 2004 and 2007

                               2004 DHS OCIO
                                        OCIO S
                                             Sttaffing
                                                affing Lev
                                                       Levels                   2007
                                                                                2007 DHS OCIO
                                                                                         OCIO Staf
                                                                                                affi
                                                                                                   fing
                                                                                                     ng Le
                                                                                                        Levvels
                                                                                                                 Federal
                                                                                                     Federal
                                                                                                                Positions
                                                                                                    Positions
                                                                                                                Unfilled 40
                                                                                                    Filled 71
                                                 Federal
                                                 Positions
                                                 Filled 49


                                   Contractors                                        Contractors
                                      121                         Federal

                                                                  Federal                550
                                                                 Positions
                                                                 Positions

                                                                 Unfilled 16

                                                                          16




                                  75 Per
                                     Perccent of Feder
                                                 Federaal                           64 Percent of Federa
                                                                                                  Federal
                                     Positions Filled                                  Positions Filled


                           Figure 6: DHS OCIO Staffing Levels: Comparison of 2004 and 2007

                           The OCIO continues to rely heavily on contractor staff, which accounted
                           for approximately 83% of total staff, to perform OCIO functions.
                           Specifically, contractors assist with initiatives such as E-government (E-
                           Gov), portfolio management, and capital planning. Although the OCIO
                           sees benefits from using contractors to help accomplish such initiatives,
                           there are also disadvantages.

                           For example, contractors are regularly reassigned or return to their home
                           offices; this means the OCIO has to continuously train new contractors,

12
     Improvements needed to DHS’ Information Technology Management Structure, OIG-04-30, July 2004.

         Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                             Page 16 

                 resulting in less time to work proactively in other areas. The DHS OCIO
                 is encouraging management staff to seek opportunities to convert positions
                 from contractor to full-time government employees. With this approach,
                 the OCIO staffing leadership hopes to increase its federal staff.

                 OCIO staffing officials said that it has been difficult to hire and retain
                 qualified staff to fill its authorized positions. They attributed hiring
                 difficulties, in part, to the complex and lengthy hiring process within the
                 federal government, which can be burdensome and lengthy. For example,
                 the OCIO must comply with Office of Personnel Management (OPM)
                 standards and guidelines to develop new position descriptions before
                 filling open positions. Further, all OCIO employees must obtain a
                 classified clearance, which often delays hiring efforts. At the time of our
                 review, OPM’s Federal Investigative Services Division said it took an
                 average of 65 days to hire a new employee undergoing the background
                 investigation process.

                 Once positions are filled, there are recurring difficulties with employee
                 retention. The OCIO has experienced turnover rates of approximately
                 47% each year for the past 2 years. Officials cited the work environment
                 in OCIO as the leading cause for high staff turnover. Specifically,
                 inadequate staffing results in employees working frequent overtime to
                 keep up with the day-to-day demands for IT services and support
                 functions. In this environment, employees get “burned out” from working
                 long hours and they leave. This creates a repetitive cycle of hiring new
                 personnel who must work long hours to meet job demands. As a result,
                 there is little continuity and initiatives often do not get carried over as staff
                 leave. For example, as new management-level staff come in and evaluate
                 ongoing initiatives, efforts are reprioritized and initiatives may be
                 canceled. In this environment, historical context on programs and
                 initiatives is lost.

                 The OCIO also attributed the high attrition rates to employees moving to
                 private companies or other federal agencies to gain salary or benefits
                 unavailable at the OCIO. The OCIO staffing official who conducts exit
                 interviews said that one primary reason for staff leaving is that they are
                 able to obtain positions that provide the opportunity to work a normal
                 schedule for a commensurate level of pay. The OCIO has developed
                 incentives to provide bonuses and awards to improve retention.

                 To augment its staff resources, the OCIO has employed a “steward model”
                 to accomplish IT services and meet infrastructure consolidation goals.
                 Under the steward model, components are named as stewards over a
                 domain, such as networks, and hold responsibility for the total
                 performance of the domain project. With this approach, the OCIO is able

Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                          Page 17 

                 to leverage the work being completed at the component level, thereby
                 gaining the IT staff resources and expertise necessary to execute large
                 initiatives.

                 According to multiple component-level CIOs, the steward approach has
                 yielded benefits, such as cost savings, and has enabled the department to
                 make significant progress meeting infrastructure consolidation goals. The
                 steward approach has been most beneficial to the IT Services Office
                 (ITSO), which has the most significant staff shortages within the OCIO.
                 ITSO is responsible for administering department-wide IT support
                 services, such as the infrastructure transformation program. However, at
                 the time of our review, ITSO was staffed at only 60% of its total
                 authorized staffing level. The steward approach has enabled ITSO to meet
                 department-wide IT infrastructure transformation program goals despite
                 inadequate staffing.

                 Inadequate Staff Resources Limit Effectiveness

                 The lack of adequate staffing has hindered the DHS CIO’s ability to
                 execute the increasing number of department-wide IT management
                 responsibilities. For example, the Enterprise Business Management Office
                 has six federal employees who are tasked to manage multiple enterprise
                 business functions, including E-Gov, CPIC, portfolio management, and
                 the ITAR process. Several component-level CIOs expressed concern with
                 the Enterprise Business Management Office’s ability to accomplish these
                 functions with their limited staff.

                 Specifically, staffing shortages have created significant challenges in
                 meeting the demands to execute the new ITAR process. For example, MD
                 0007.1 requires the DHS OCIO to provide comments and
                 recommendations on proposed IT acquisitions within 10 business days of
                 receiving the documentation. However, on average, it took 19.6 working
                 days for the OCIO to process IT acquisition requests, with review timing
                 peaking at over 30 days in fiscal year 2007 before additional resources
                 became available. As a result, some components said that the delays
                 affected the time needed to obtain complex acquisitions, making it
                 difficult to keep IT projects on schedule and meet deadlines for
                 implementing high-profile projects.

                 Inadequate staffing also limits the Enterprise Business Management
                 Office’s ability to implement improvements to the ITAR process. For
                 example, plans are in place to upgrade the submissions of acquisitions
                 request packages from the existing email and database to a web-based
                 functionality. Additionally, the ITAR process will be moved to a new
                 automated tracking system to allow components to track the progress of

Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                          Page 18 

                         acquisitions submitted to the OCIO. Both efforts are expected to improve
                         review times and increase collaboration among components and
                         department stakeholders. However, with limited staffing resources in the
                         OCIO, automating the ITAR submission process has not received priority
                         attention resulting in continued use of an inefficient work-around. The
                         Enterprise Business Management office also plans to increase the usage of
                         data collected with component’s IT acquisitions packages. For example,
                         the Deputy CIO said that this data could be used to consolidate operations
                         and maintenance acquisition as components move to enterprise data
                         centers. However, it does not have the staff or time to fully analyze all the
                         data captured as part of the ITAR process.

                         Formal Staffing Plan Needed

                         To address its staffing shortages, the OCIO has developed an informal
                         staffing resource plan to track and manage vacancies and recruiting
                         efforts. According to the OCIO staffing official, the plan also enables the
                         OCIO to track staffing retention, as well as monitor how the office is
                         progressing toward meeting its target staffing goals of hiring an additional
                         20 to 22 people over the coming year. However, the DHS CIO lacks a
                         formal long-term recruiting and retention strategy. While the current
                         staffing plan enables the OCIO to maintain a holistic view of staffing
                         levels and vacancies, it does not contain a clearly defined strategy, with
                         specific actions and milestones, to assist the CIO in recruiting and
                         retaining full-time employees.

                         In September 2007, the Government Accountability Office (GAO)
                         reported that DHS had developed an IT human capital plan.13 Although
                         the plan was largely consistent with official OPM guidance, some
                         recommended practices were only partially addressed. Missing elements
                         include a clearly defined strategy and plan to facilitate human capital
                         changes and workforce planning. DHS officials responsible for
                         developing the plan said that until the missing elements are fully
                         addressed, it is unlikely that the plan will be effectively and efficiently
                         implemented. This, in turn, will continue to put DHS at risk of not having
                         sufficient people with the right knowledge, skills, and abilities to manage
                         and deliver its mission-critical IT systems.




13
  Information Technology, DHS’ Human Capital Plan is Largely Consistent with Relevant Guidance, but
Improvements and Implementation Steps are Still Needed, GAO-07-425, September 2007.

       Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                  Page 19 

Department-Wide IT Budget Oversight and Authority Limited

                            The Clinger-Cohen Act requires that CIOs review the IT budget within
                            their agency or department to effectively manage IT systems and
                            initiatives as strategic investments.14 Further, DHS MD 0007.1 requires
                            component CIOs to effectively manage and administer all component IT
                            resources and assets. Specifically, they must ensure that all IT
                            acquisitions in excess of $2.5 million are approved by the DHS CIO
                            before procurement; report purchases under $2.5 million to the DHS CIO
                            monthly, and prepare a separate IT budget across all component programs
                            and activities.

                            However, due in part to decentralized IT budget practices, DHS
                            component CIOs face challenges to fully execute the new responsibilities
                            to consolidate and report on agency-wide IT spending. Although IT
                            budget authority has increased for both the DHS and component-level
                            CIOs, execution of that authority is hindered within components by
                            fragmented IT budget policies and procedures. In fact, the majority of
                            component CIOs interviewed said that they are constrained by existing IT
                            budget practices, which present challenges to maintain sufficient agency-
                            wide IT budget oversight. As a result, they are not fully engaged in IT
                            budget planning activities for all levels of IT spending. While component
                            CIOs lack the ability to efficiently and effectively report on IT spending,
                            the DHS CIO has limited oversight of IT department-wide.

                            Figure 7, below, depicts the varying levels of budget authority within the
                            seven major operational components.
                              Major Component CIO IT Budget Au
                                                            Authorit
                                                              thorityy
                                                      14%



                                           14%




                                                                                       72%


                                 = Li
                                   Limited IT B
                                              Budget
                                               udget Auth
                                                     Author
                                                         oritityy – som
                                                                     omee visib
                                                                            sibiilit
                                                                                 lityy, but little control of IT
                                                                                                              IT spen
                                                                                                                 spending

                                 = Moder
                                     deraate IT Budget Author
                                                       Authoritityy – visib
                                                                       isibiility
                                                                              ity, and some
                                                                                       some contr
                                                                                            controol of IT spending

                                 = Substantial IT Budget Aut
                                                         Auth
                                                            hor
                                                             oritityy – vis
                                                                         isibi
                                                                            ibillity, and ffu
                                                                                            ull contr
                                                                                                controol of IT spending
                                                                                                               spending


                            Figure 7: Major Component CIO IT Budget Authority

14
     Clinger-Cohen Act of 1996, Public Law 104-106, Division E, Section 5125, February 10, 1996.

          Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                                  Page 20 

                        A number of component CIOs are not fully engaged in program-level IT
                        budget and planning activities. Because programs are often funded
                        through direct appropriations or other sources, investment decisions may
                        reside outside of the component CIO’s purview. In these cases, offices
                        and divisions maintain separate IT budgets that are independent of the
                        CIO. For example, we reported in October 2007 that TSA’s CIO had no
                        official or substantive role in IT budgeting or planning outside the IT
                        Division. 15 In this case, the CIO had IT budget authority for only 26% of
                        the total IT spending across the agency, with the remaining IT being
                        managed by programs and offices outside the CIO’s authority. As a result,
                        the CIO had limited visibility of systems development activities or
                        implementation plans.

                        Additionally, a number of component CIOs said challenges stem from
                        complex budget tracking and inconsistent accounting practices, such as
                        uniform standards for categorizing IT spending across the agency.
                        According to several CIOs, IT spending is often improperly categorized,
                        making it difficult to compile an agency-wide IT budget. For example,
                        FEMA OCIO officials said that it is a complex process to separate out IT
                        spending from the overall project because the IT is often rolled into the
                        overall project costs.

                        Component CIOs are making efforts to centralize component-wide IT
                        spending to better meet the requirements for reporting IT budget data to
                        the department CIO. However, component CIOs said it requires a
                        significant effort to centralize existing fragmented IT budget practices.
                        For example, the Coast Guard is attempting to centralize its IT budgeting
                        functions, but expects it to be a long-term effort. The Coast Guard CIO is
                        developing a process to review component IT spending under $2.5
                        million. Since it is not cost-effective to look at all purchases, the CIO is
                        determining what the minimum dollar threshold should be. The CIO
                        expects this process also will increase his ability to review common IT
                        purchases, such as radios, to ensure interoperability.

                        As a result, component CIOs may not be able to accomplish department IT
                        budget responsibilities or reporting requirements until existing
                        component-level budget functions are centralized and updated. Although
                        component CIOs are not required to provide an IT budget to the DHS CIO
                        until fiscal year 2009, some components attempted to meet an initial FY
                        2008 reporting deadline in April, 2007. Senior DHS CIO officials
                        confirmed that it was a challenge for several component CIOs to provide
                        budget information to the DHS CIO for the initial reporting deadline due

15
  DHS OIG, Information Technology Management Needs to Be Strengthened at the Transportation Security
Administration, OIG 08-07, October 2007.

       Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                  Page 21 

                      to the short timeframe for consolidating IT budgets. DHS OCIO officials
                      said that some components were better able gather the data and create a
                      component IT budget than others.

                      Until IT budget data is fully consolidated at the department level, the DHS
                      CIO will not attain complete visibility of IT spending across components,
                      hindering the ability to influence technology decisions and investments.
                      This also limits the ability to remediate IT budget issues prior to
                      submission to OMB.

Improvements Needed for IT Acquisition Reviews

                      The ITAR process has not yet achieved full impact on department-wide IT
                      spending since its implementation in November 2006 due to limited
                      compliance by DHS programs and components. Specifically, in fiscal
                      year 2007, only 57% of the department’s estimated $5.6 billion IT budget
                      was evaluated through the ITAR process. According to the DHS OCIO,
                      this is due in part to incomplete agency compliance, as well as the level of
                      effort to implement and administer the acquisition process at the
                      department and component levels.

                      Additionally, not all department-wide programs have embraced the new
                      process. DHS OCIO officials said that this is more apparent with
                      programs that have direct congressional funding or high profile visibility
                      such as Custom and Border Protection’s Secure Border Initiative (SBI-
                      Net). Consequently, these programs are often managed outside of the
                      ITAR process by executive leadership boards that include the DHS
                      Deputy Secretary. As a result, department-wide IT acquisitions oversight
                      remains limited while significant portions of IT acquisitions are not yet
                      being reviewed to ensure alignment with IT policy, standards, objectives,
                      and goals.

                      Further challenges in implementing the ITAR process stem from the level
                      of effort for component CIOs to incorporate the new ITAR process
                      without any additional staff or budget resources. In most cases, this is a
                      new process not currently performed as part of existing IT acquisitions at
                      the component level. Most component CIOs said that the ITAR process
                      has increased the administrative burden of the component CIOs without
                      adding additional budget or staff resources to assist. Specifically, CIOs
                      said that preparing IT acquisition requests to submit to the DHS CIO
                      requires a significant amount of time and effort, which has increased their
                      workload. However, most components reported they lacked sufficient
                      staff to successfully implement the processes. Component CIOs are
                      putting staff in place and establishing new policies and procedures to more
                      effectively execute the new IT acquisitions process.

     Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                               Page 22 

                     Likewise, several components have plans to update their existing IT
                     acquisitions workflow in order to begin conducting reviews for
                     acquisitions under $2.5 million. For example, TSA is establishing a
                     review team of eight subject matter experts to review IT acquisition
                     requests under $2.5 million. However, there is a challenge to obtain
                     staffing with sufficient time or experience to begin the new duties
                     immediately and with minimal training. A separate component, the
                     United States Coast Guard (USCG), is creating a new acquisition office to
                     augment the CIOs ability to administer IT acquisition reviews. In addition
                     to performing the required ITAR functions, the office will serve as a
                     liaison to funnel relevant information between the department and subject
                     matter experts.

DHS IT Management Scorecard Ratings

                     To determine whether current DHS-level IT management practices and
                     operations are effective, we conducted a high-level assessment of DHS’
                     current IT management capabilities. The purpose of this scorecard is to
                     demonstrate where DHS has strengthened its IT management. The
                     scorecard includes DHS CIO functions as well as the same functions
                     within the seven largest DHS component-level CIO offices. A
                     measurement of components’ capabilities is included to provide a more
                     complete perspective on department-wide capabilities.

                     The focus of this assessment was to identify progress made implementing
                     the following six IT management capability areas:
                         •	 IT Budget Oversight: Ensures visibility into IT spending and
                             alignment to the IT strategic direction.
                         •	 IT Strategic Planning: Provides a strategy to align the IT
                             organization to support mission and business priorities.
                         •	 Enterprise Architecture: Functions as a blueprint to guide IT
                             investments for the organization.
                         •	 Portfolio Management: Improves leadership’s ability to
                             understand important interrelationships between IT investments
                             and department priorities and goals.
                         •	 Capital Planning and Investment Control: Improves the allocation
                             of resources in order to benefit the strategic needs of the
                             department.
                         •	 IT Security: Ensures protection that is commensurate with the
                             harm that would result from unauthorized access to information.

                     These six elements were selected based on IT management capabilities
                     required by federal and DHS guidelines to enable CIOs to manage IT
                     department-wide. The ratings applied to each capability were based on a

    Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                              Page 23 

                            four-tiered scale ranging from “Little” progress to “Substantial” progress.
                            Each capability was rated based on the extent to which the capability has
                            been planned and/or implemented, as well as the extent to which the
                            capability is able to provide IT management benefits to the organization.
                            Figure 8 below lists the levels and definitions for our ratings.

                             Progress Level        Definition
                                                   Plans ar
                                                         are
                                                           e in pl
                                                                 plac
                                                                   acee for thi s capa
                                                                                    pabi
                                                                                       billit y, bu
                                                                                                 butt t he capa
                                                                                                             pabi
                                                                                                                billit y has
                                                                                                                         has not
                                      Litt tle
                                      Li
                                                   been fully i mpl
                                                                 ple
                                                                   emented

                                                   The ca
                                                       capabil
                                                          abilit y i s pa
                                                                       parr tial ly impl
                                                                                      plem
                                                                                        ement
                                                                                          ented,
                                                                                             ed, w it h limit ed IT
                                     Som
                                     Some
                                                   m anagem
                                                       agement bene
                                                                  beneffit s real ized

                                                   The capabil
                                                            abil it y i s impl
                                                                            plem
                                                                               eme
                                                                                 ented wit h moderate IT managem
                                                                                                            agement
                                   Moder
                                    oderate
                                                   benef
                                                    enefit s reali zed

                                                   The ca
                                                       capabil
                                                            abilit y i s impl
                                                                           plem
                                                                              eme
                                                                                ented w
                                                                                      wiit h substant
                                                                                                   ntiial I T managem ent
                                  Su
                                  Subbst ant ial
                                                   benef
                                                    enefit s reali zed

                            Figure 8: Progress Levels for OIG Scorecard Elements


                            IT Budget Oversight
                            The DHS CIO has demonstrated “some” progress in increasing
                            department-wide visibility of the IT budget across DHS. As a result of
                            increased department-wide IT spending visibility, the DHS CIO has also
                            made improvements conducting department-wide IT budget functions.
                            The Clinger-Cohen Act requires federal CIOs to ensure that IT is acquired
                            and managed in accordance with agency mission and policies.16 Coupled
                            with new responsibilities defined in the DHS MD 0007.1, the DHS CIO
                            plans to conduct reviews across the department of all IT and non-IT
                            investments that contain any IT assets and services. The goals for IT
                            budget reviews are to resolve IT budget issues prior to OMB submission,
                            to align IT investments to targets and priorities, and to eliminate
                            redundancies.
                            Progress in this area was further evidenced by the DHS CIO’s fiscal year
                            2010 IT budget planning guidance, issued in January 2008. According to
                            the DHS OCIO, this guidance will better integrate component IT resource
                            reviews with DHS program and budget reviews. With support of DHS
                            leadership, the DHS OCIO will continue to focus on improving IT budget
                            capabilities.




16
     Clinger-Cohen Act of 1996, Public Law 104-106, Division E, Section 5125, February 10, 1996.


          Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                      Page 24 

                                                        IT BUDGET
                                                           BUDGET OVE
                                                                  OVERRSIG
                                                                       SIGHT
                              P
                              Plans
                                lan
                                 anss are iin n                              C
                                                                             Capability
                                                                              apab
                                                                               pabilit
                                                                                    lity
                                                                                       y           C
                                                                                                   Capability
                                                                                                     apabili
                                                                                                      pabilitty
                                                                                                              y
                                                      C
                                                      Capability
                                                        apab
                                                         pability
                                                              lity is
                               p
                               place
                                 lace b bu
                                        butut                           iimplemented
                                                                          mplem
                                                                             emen
                                                                                ented
                                                                                  ted wiw
                                                                                        with
                                                                                          ith   implemented
                                                                                                implem
                                                                                                    emen
                                                                                                       ented
                                                                                                          ted wiwith
                                                                                                                with
                                                         p
                                                         partially
                                                          artiall
                                                             iallyy
                                 nott fu
                                 no   ffully
                                        ullly                               mod
                                                                            mode
                                                                            moderate
                                                                                erate IT          substantial
                                                                                                  subst
                                                                                                    bstantia
                                                                                                         ntiall IT
                                                      imp
                                                      im
                                                      implemented
                                                         plemented
                             impl
                             imp
                             implemented
                                  lemented                                 Mgmt
                                                                           Mgmt benefi
                                                                                benefits
                                                                                benefits          Mgmt
                                                                                                  Mgmt benefits
                                                                                                        be
                                                                                                        bene
                                                                                                           neffits

                                 Litttle
                                 Lit                    Some
                                                        Some              Moderate               Su
                                                                                                 Subst
                                                                                                   bsta
                                                                                                   bstant
                                                                                                        ntial
                                                                                                          ial


                                                           DHS
                                                           DHS CIO

                                                  Compon
                                                  Component

                                                    CI
                                                    CIOs
                                                      Os
                                                      Os


                         Overall, components demonstrated “some” progress made in conducting
                         IT budget planning and programming functions. Although component-
                         level IT budget responsibilities have increased through the MD 0007.1,
                         over 70% of DHS component CIOs remain hindered by ineffective,
                         decentralized IT budget practices. Most component CIOs plan to further
                         centralize existing IT budget functions in order to meet requirements in
                         the management directive to prepare a component IT budget. For
                         example, many DHS components are implementing initiatives to increase
                         centralized management of IT investments by restructuring and
                         consolidating IT spending accounts that are currently managed by separate
                         offices throughout the agency.

                         IT Strategic Planning
                         The DHS CIO’s progress in performing IT strategic planning functions is
                         considered “moderate.” OMB Circular A-130 instructs agency CIOs to
                         create strategic plans that demonstrate how information resources will be
                         used to improve the productivity, efficiency and effectiveness of
                         government programs. 17 An effective IT strategic plan establishes an
                         approach to align resources and provides a basis for articulating how the
                         IT organization will develop and deliver capabilities to support mission
                         and business priorities. The DHS OCIO has made progress in conducting
                         IT strategic planning by increasing focus on alignment of IT to department
                         goals. Although the current IT planning approach does not fully link
                         technology to mission requirements, the OCIO plans to achieve strategic
                         outcomes and stronger IT alignment to the Secretary’s goals. The OCIO
                         is currently updating DHS’ IT strategic plan and has communicated the
                         goals within the plan to the CIO Council.




17
  Revision of Office of Management and Budget Circular A-130, Transmittal 4, Management of Federal
Information Resources, July 1994.

       Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                        Page 25 

                                                     IT STRA
                                                        STRATEG
                                                             TEGI
                                                             TEGIC PL
                                                                   PLAANNING
                                 P
                                 Plans
                                   lans arare
                                          are in
                                               in                           Capabi
                                                                            Ca
                                                                            Capability
                                                                               pabili
                                                                                    litty
                                                                                        y            C
                                                                                                     Capability
                                                                                                       apabili
                                                                                                        pability
                                                                                                               ty
                                                     Capability
                                                     C apabil
                                                        pabiliity iis
                                                                    s
                                  place
                                  place but                             iimplemented
                                                                          mplem
                                                                             emented
                                                                                ented wi with
                                                                                         with   iimplemented
                                                                                                  mplemented
                                                                                                      emented w  wi
                                                                                                                 with
                                                                                                                   ith
                                                        par
                                                        partiall
                                                        partially
                                                            iallyy
                                    not fu
                                        ffully
                                          ull
                                           llyy                             moderate
                                                                            modera te ITIT         s
                                                                                                   substantial
                                                                                                    ubstantial
                                                                                                    ubstantial IITT
                                                     implem
                                                     implemented
                                                          emented
                                                             ented
                                implemented
                                implemented
                                     emented                               Mg
                                                                           Mgm
                                                                           Mgmt
                                                                             mt benefits           M
                                                                                                   Mgmt
                                                                                                     gmt bene
                                                                                                         benefits
                                                                                                                fits
                                   Little
                                     ttle              Som
                                                       Some               Mo
                                                                          Mod
                                                                            de
                                                                             erate
                                                                               rate              Subs
                                                                                                 Substantial

                                                                          DH
                                                                          DHSS CI
                                                                               CIO
                                                               Componentt
                                                               Componen
                                                                 CIOs
                            Overall, components made “some” progress in conducting IT strategic
                            planning functions. The MD 0007.1 requires component CIOs to
                            implement a detailed IT strategic plan specific to the component’s mission
                            and in support of DHS’ mission. As of January 2008, approximately 70%
                            of the component-level CIOs had developed an IT strategic plan.
                            However, there was a wide degree of variance in component-level IT
                            planning capabilities. For example, not all components are consistently
                            able to link strategic goals and objectives with IT investments. Further,
                            although some component CIOs said that they had developed an IT
                            strategic plan, not all are up-to-date or aligned to the DHS mission.

                            As a result, components may invest in technology that is not effectively
                            aligned with department and agency mission, goals, and business
                            processes. Improvements are planned by some component CIOs who are
                            updating their IT strategic plans. However, until components improve
                            their strategic planning approach, the agency may fall short of its potential
                            to improve business processes and systems.

                            Enterprise Architecture
                            The DHS CIO has made “moderate” progress in implementing
                            department-wide enterprise architecture. The Clinger-Cohen Act requires
                            that CIOs develop and implement an integrated IT architecture for the
                            agency. 18 An IT architecture functions as a blueprint for the organization
                            to define an operational and technical framework to guide IT investments.
                            Without an effective architecture, there is increased risk that systems will
                            be duplicative, not well integrated, and limited in terms of optimizing
                            mission performance. The DHS-level enterprise architecture has
                            advanced greatly as an effective tool used for reviews and IT management
                            decision-making. Overall, the DHS OCIO has increased its ability to
                            enforce architecture alignment through MD 0007.1. Significant progress
                            is due in part to the ITAR process, which has helped to promote and
                            enforce architecture alignment of component IT investments to the
                            business and technical architectures. Going forward, the OCIO plans to

18
     Clinger-Cohen Act of 1996, Public Law 104-106, Division E, Section 5125, February 10, 1996.

          Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                       Page 26 

                         mature and optimize the department’s architecture through performance-
                         based outcomes and to further develop the data architecture in mission-
                         critical areas.


                                                ENT
                                                ENTERPRIS
                                                    RPRISE
                                                      RISE ARCHITEC
                                                               ITECT
                                                                 ECTURE
                               Plans
                               P lans are in
                                           in                             C
                                                                          Capability
                                                                            apa
                                                                             pabil
                                                                                biliity             Capab
                                                                                                    Capabi
                                                                                                    Capability
                                                                                                          il it y
                                                  C
                                                  Capability
                                                    apabili
                                                     pability
                                                            ty iis
                                                                 s
                                place
                                place but                            iimplemented
                                                                       mplem
                                                                           ement
                                                                              ente
                                                                                 ed wi w
                                                                                       with
                                                                                         ith
                                                                                          th   iimplemented
                                                                                                 mplem
                                                                                                    ement
                                                                                                       enteed wi w
                                                                                                                 with
                                                                                                                   ith
                                                     par
                                                     part
                                                     partially
                                                        tiall
                                                           llyy
                                  not fully
                                      fully
                                        lly                              mode
                                                                         mod
                                                                         moderate
                                                                              erate
                                                                               rate IT            s
                                                                                                  substantial
                                                                                                   ubst
                                                                                                   ubstaant
                                                                                                         ntiial
                                                                                                             al IT
                                                 iimplemented
                                                   mplem
                                                       ement
                                                          ente ed
                             iimplemented
                               mplem
                                   ement
                                       enteed                           M
                                                                        Mgmt
                                                                          gmt be
                                                                               ben
                                                                               benefits
                                                                                 nefi fits
                                                                                        ts        Mg
                                                                                                  Mgm
                                                                                                  Mgmt
                                                                                                     mt bene
                                                                                                        benefitsfits

                                Li
                                Litttle             Some
                                                    Some               Mode
                                                                          erate
                                                                            rate                Substantial
                                                                                                Sub


                                                                                    DH
                                                                                    DHS
                                                                                      S CIO 


                                                                     Component
                                                                       CI
                                                                       CIOs
                                                                         Os
                         Overall, components received a rating of “moderate” for implementing
                         component-level architectures that align IT investments to the DHS
                         architecture. The MD 0007.1 requires component CIOs to implement a
                         detailed enterprise architecture specific to the component’s mission and in
                         support of DHS’ mission. As of January 2008, over 70% of the
                         component-level CIOs were able to align IT investments to the
                         department’s architecture. Additionally, most components have an
                         architecture defined at the component level that is used for some degree of
                         IT investment decision-making. However, architecture products, such as
                         reference models, definitions of current and future state architectures, and
                         transition plans are in varying stages of development or use by
                         components. Further, a number of components said that their architecture
                         products were out of date or needed to be better defined. For example,
                         one component CIO said that although they have an enterprise architecture
                         in place, it is not fully kept up to date or used.

                         Portfolio Management
                         The DHS OCIO has made “moderate” progress in establishing the
                         department’s portfolio management capabilities. OMB Circular A-130
                         instructs agencies to implement a portfolio approach for investments to
                         maximize return for the agency as a whole.19 The DHS portfolio
                         management program aims to group related IT investments into defined
                         capability areas needed to support strategic goals and missions. Portfolio
                         management improves leadership’s visibility into relationships between IT
                         assets and department mission and goals across organizational boundaries.



19
  Revision of Office of Management and Budget Circular A-130, Transmittal 4, Management of Federal
Information Resources, July 1994.

       Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                   Page 27 

                 The DHS OCIO has a solid plan in place to implement portfolio
                 management capabilities in fiscal year 2008. The OCIO has recently
                 finalized plans, along with the first round of documentation and guidance,
                 for a department-level portfolio management approach. Currently, there
                 are 22 defined portfolio areas, six of which are considered priority areas:
                 infrastructure, geospatial, case management, human resources, screening
                 and credentialing, and finance are implemented. Additionally, OCIO has
                 created a portfolio management integrated project team to develop
                 transition plans, measure performance, and standardize the portfolio
                 management process. Although progress is being made, the department is
                 not yet realizing management benefits from the portfolio management
                 program. As a result, the department may miss opportunities for system
                 integration and cost savings.

                                             PORTF
                                               RTFOLIO MA
                                                       MANA
                                                          NAG
                                                          NAGEMENT
                                                              MENT
                       Plans
                       P lans are inin                                   C
                                                                         Capability
                                                                           apa
                                                                            pabil
                                                                               biliity             Capab
                                                                                                   Capabi
                                                                                                   Capability
                                                                                                         il it y
                                              C
                                              Capability
                                                apabili
                                                 pability
                                                        ty iis
                                                             s
                        place
                        place but                                   iimplemented
                                                                      mplem
                                                                          ement
                                                                             ente
                                                                                ed wi w
                                                                                      with
                                                                                        ith
                                                                                         th   iimplemented
                                                                                                mplem
                                                                                                   ement
                                                                                                      enteed wi w
                                                                                                                with
                                                                                                                  ith
                                                 par
                                                 part
                                                 partially
                                                    tiall
                                                       llyy
                          not ffully
                                ully
                                 lly                                    mode
                                                                        mod
                                                                        moderate
                                                                             erate
                                                                              rate IT            s
                                                                                                 substantial
                                                                                                  ubst
                                                                                                  ubstaant
                                                                                                        ntiial
                                                                                                            al IT
                                             iimplemented
                                               mplem
                                                   ement
                                                      ente ed
                     iimplemented
                       mplem
                           emententeed                                 M
                                                                       Mgmt
                                                                         gmt be
                                                                              ben
                                                                              benefits
                                                                                nefi fits
                                                                                       ts        Mg
                                                                                                 Mgm
                                                                                                 Mgmt
                                                                                                    mt bene
                                                                                                       benefitsfits

                        Li
                        Litttle                So
                                               Som
                                                 me                    Mo
                                                                       Mod
                                                                         derate                Substantial
                                                                                               Sub


                                                                 DH
                                                                 DHS
                                                                   S CI
                                                                     CIO
                                                                       O
                                         Component

                                         Component
                                           CIO
                                           CIOss


                 Overall, DHS components have made “some” progress establishing
                 portfolio management capabilities; however, full implementation of this
                 capability widely remains a work in progress. The majority of DHS
                 component-level CIOs have developed a mapping approach to align
                 component IT systems to current DHS-level portfolios. However, as of
                 January 2008, less than half of the seven major component CIOs had
                 implemented a formal portfolio management process at the component
                 level. This is due in part to challenges relating to creating and aligning
                 component specific portfolios to DHS’ 22 portfolios.
                 Many CIOs said that it is a complicated process to fully align their unique
                 mission and business processes to DHS-level IT portfolios. However,
                 Coast Guard officials said that they are working to align all of their IT
                 systems to the DHS portfolios. Through the IT budget review, Coast
                 Guard and DHS OCIO officials identified which portfolios will be
                 associated with each of the systems they have identified in that review.
                 Until this capability is fully implemented, DHS components may continue
                 to invest in systems within organizational silos, and opportunities for
                 consolidation and cost savings may not be realized.


Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                               Page 28 

                            Capital Planning and Investment Control (CPIC)
                            The DHS OCIO has made “moderate” progress establishing Capital
                            Planning and Investment Control (CPIC) capabilities. The Clinger-Cohen
                            Act20 requires that agencies and departments create a CPIC process to
                            manage the risk and maximize the value of IT acquisitions. The CPIC
                            process is intended to improve the allocation of resources, in compliance
                            with laws and regulations, in order to benefit the strategic needs of the
                            department. As part of the CPIC process, agencies are required to submit
                            business plans for IT investments to OMB that demonstrate adequate
                            planning. In fiscal year 2007, the 94 DHS programs on the management
                            watch list were reduced to 18. In fiscal year 2008, there are 53 programs,
                            and officials in the OCIO have undertaken efforts to remove these from
                            the list by working with the program managers through the CPIC
                            Administrator’s twice-monthly meetings.

                                                                            CP
                                                                            CPIC
                                                                               IC
                                  Plans
                                  P lans are in
                                              in                                     C
                                                                                     Capability
                                                                                       apa
                                                                                        pabil
                                                                                           biliity             Capab
                                                                                                               Capabi
                                                                                                               Capability
                                                                                                                     il it y
                                                         C
                                                         Capability
                                                           apabili
                                                            pability
                                                                   ty iis
                                                                        s
                                   place
                                   place but                                    iimplemented
                                                                                  mplem
                                                                                      ement
                                                                                         ente
                                                                                            ed wi w
                                                                                                  with
                                                                                                    ith
                                                                                                     th   iimplemented
                                                                                                            mplem
                                                                                                               ement
                                                                                                                  enteed wi w
                                                                                                                            with
                                                                                                                              ith
                                                            par
                                                            part
                                                            partially
                                                               tiall
                                                                  llyy
                                     not fully
                                         fully
                                           lly                                      mode
                                                                                    mod
                                                                                    moderate
                                                                                         erate
                                                                                          rate IT            s
                                                                                                             substantial
                                                                                                              ubst
                                                                                                              ubstaant
                                                                                                                    ntiial
                                                                                                                        al IT
                                                        iimplemented
                                                          mplem
                                                              ement
                                                                 ente ed
                                iimplemented
                                  mplem
                                      ement
                                          enteed                                   M
                                                                                   Mgmt
                                                                                     gmt be
                                                                                          ben
                                                                                          benefits
                                                                                            nefi fits
                                                                                                   ts        Mg
                                                                                                             Mgm
                                                                                                             Mgmt
                                                                                                                mt bene
                                                                                                                   benefitsfits

                                   Li
                                   Litttle                So
                                                          Som
                                                            me                      Mode
                                                                                       erate
                                                                                         rate              Su
                                                                                                           Sub
                                                                                                             bstantial


                                                                            DH
                                                                            DHS
                                                                              S CI
                                                                                CIO
                                                                                  O
                                                   Component

                                                   Component
                                                     CIO
                                                     CIOss


                            Overall, components demonstrated “some” progress in establishing capital
                            planning capabilities. Most components had not yet achieved an
                            integrated planning and investment management capability. Over 70% of
                            the major DHS components had limited capital planning processes,
                            outside the existing OMB 300 process. However, some component CIOs
                            said that they are creating a CPIC process to integrate with existing
                            governance structures such as the IRB. For example, the ICE IRB
                            resembles a CPIC group with the major disciplines such as security,
                            budget, and Enterprise Architecture all integrated into this process. The
                            ICE CIO said that this process has improved the component’s investment
                            review and helps to leverage resources effectively. Overall, there have
                            been improvements in the CPIC process by the components but this
                            process is still being refined.




20
     Clinger-Cohen Act of 1996, Public Law 104-106, Division E, Section 5122, February 10, 1996.

          Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                                          Page 29 

                 IT Security
                 DHS IT security is rated at “moderate,” for progress made over the past
                 two years in compliance with the Federal Information Security
                 Management Act (FISMA). OMB Circular A-130 requires agencies to
                 provide information and systems with protection that is commensurate
                 with the risk and magnitude of the harm that would result from
                 unauthorized access to these assets or their loss, misuse, or modification.
                 The CIO has taken an active role in ensuring that components comply with
                 FISMA. In 2007, the CIO requested components to focus on improving
                 areas such as Certification and Accreditation (C&A), annual self-
                 assessments, and plan of action and milestones management. According
                 to the DHS OCIO, additional quality control measures have been
                 implemented to better manage the C&A process. The DHS OCIO also
                 plans to focus on improving disaster recovery and continuity of operations
                 over the coming year.

                                                              IT SECUR ITY
                       Pl
                       Plans
                       Plan
                          ans  s are
                                 ar
                                 ar e in
                                      in                                    Ca
                                                                            Cap
                                                                            Capability
                                                                               p abi lilitty              Capability
                                                                                                          Cap
                                                                                                          Ca pabbii li ty
                                                  C
                                                  Capability
                                                    apa
                                                     pab bili
                                                          ilitty iis
                                                                   s
                        place
                        p l ace
                            ace bub
                                  but
                                    utt                                iimplemented
                                                                         mpl emen
                                                                             ementted w     wi
                                                                                            with
                                                                                              i th   iimplem  ented
                                                                                                       mp lem ent
                                                                                                              en ted wi  with
                                                                                                                            th
                                                     par
                                                     pa
                                                     partially
                                                        rti a
                                                            alll y
                         n
                         notot ffully
                                 u
                                 ully
                                  lly                                      mo
                                                                           mod
                                                                           moderate
                                                                              d erate IIT   T           substantial
                                                                                                        sub stanti a all IT
                                                 iimplemented
                                                   mp lemen
                                                       ementted
                     iim
                       mp plemented
                            l emen
                              ementted                                    Mgm
                                                                          Mg
                                                                          Mgmt
                                                                             mt bbenefits
                                                                                  enef
                                                                                   nefi ts              Mgm
                                                                                                        M gm t benefits
                                                                                                               ben efi  fits
                                                                                                                          ts

                         Litt tl e
                         Li                         So
                                                    Somme                 Mode rat e                  Subst
                                                                                                      Subs t a nt ia l


                                                                       DHS CIO

                                       ( Compo
                                          om pone
                                               nennts were no
                                                           nott ra
                                                                r ated o
                                                                       onn IT s ec ur ity )




Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain

                                                   Page 30
Recommendations

                    We recommend that the DHS CIO:

                    Recommendation #1: Augment the DHS OCIO Staffing Plan to include
                    specific actions and milestones for recruiting and retaining fulltime
                    employees.

                    Recommendation #2: Ensure that component CIOs submit
                    comprehensive, standardized IT budgets to the DHS CIO in accordance
                    with Management Directive 0007.1.

                    Recommendation #3: Ensure that component-level CIOs develop and
                    maintain IT strategic plans and enterprise architectures that align to DHS.




   Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                             Page 31 

Management Comments and OIG Analysis

                    We obtained written comments on a draft of this report from the Under
                    Secretary for Management. We have included a copy of the comments in
                    their entirety in Appendix B.

                    The Under Secretary for Management concurred with our
                    recommendations and provided comments on specific areas within the
                    report. Additionally, the Under Secretary for Management provided an
                    overview on steps being taken to address specific findings and
                    recommendations in the report. We have reviewed management’s
                    comments and provide an evaluation of the issues outlined in the
                    comments below.

                    In response to recommendation 1, the Under Secretary for Management
                    agreed that the Office of the CIO’s staffing levels remain insufficient.
                    Accordingly, steps have been taken to accelerate hiring to fill vacant
                    positions. For example, Management Directorate offices are in the
                    process of evaluating whether contractor positions may be converted to
                    create permanent federal positions. Additionally, the CIO Enterprise
                    Business Management Office is developing a staffing management plan
                    that will include individual development plans, training, clearly defined
                    career paths, and performance goals. Management expects this approach
                    to improve the CIO’s ability to attract and retain talented government
                    professionals, as well as improving the timeliness of IT acquisitions
                    reviews.

                    The Under Secretary for Management also agreed that staff resource
                    shortages within the Office of the CIO limit effectiveness in performing
                    information technology acquisitions review. To address this finding, the
                    CIO has distributed ITAR guidance to components and is developing
                    automated capability to improve the process. Such steps are expected to
                    assist the office in meeting the ten-business-day deadline for granting IT
                    acquisition review decisions.

                    In response to recommendation 2, the Under Secretary for Management
                    stated that the CIO is working closely with the Chief Financial Officer
                    (CFO) and CIO Council to update and communicate budget policies and
                    procedures to components. Specifically, the CIO is working with the CFO
                    to closely integrate IT budget policies and procedures to assess annual
                    component funding requests and ensure their alignment with the
                    department’s strategic goals and objectives. Additionally, the CIO
                    Office’s Portfolio Management process has been integrated in the IT

   Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain

                                            Page 32
                 budget review process ensuring that the Portfolio Managers have input
                 into the budget recommendations. Through the budget process, continued
                 coordination through the CIO Council will improve consistency in budget
                 data requested by the CIO and the budget data received through the annual
                 resource allocation plan process.

                 The Under Secretary for Management did not provide a specific response
                 to recommendation 3, relating to component-level CIOs’ IT strategic plans
                 and enterprise architecture efforts.




Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                          Page 33 

Appendix A
Scope and Methodology

                      As part of our ongoing responsibility to assess the efficiency,
                      effectiveness, and economy of departmental programs and operations, we
                      conducted a follow-up review of DHS’ efforts to improve its IT
                      management structure and operations. The objectives of this review were:

                          •	 To identify the current DHS CIO management structure and
                             changes made to establish roles, responsibilities, and guidance for
                             managing IT department-wide;
                          •	 To determine whether current DHS-level IT management practices
                             and operations are effective to ensure strategic management of IT
                             investments; and
                          •	 To assess progress made in addressing our prior recommendations.

                      To establish criteria for this audit, we researched and reviewed federal
                      laws and executive guidance related to IT management and CIO
                      governance. We conducted research to obtain testimony, published
                      reports, documents, and news articles regarding the DHS CIO operations
                      and IT management throughout the department. We reviewed pertinent
                      GAO and Office of Inspector General reports to identify prior findings and
                      recommendations. A list of these reports is provided in Appendix C for
                      reference. Using this information, we designed a data collection approach
                      that consisted of focused interviews and documentation analysis to
                      accomplish our audit objectives. We then developed a series of questions
                      and discussion topics to facilitate our interviews.

                      We interviewed DHS CIO officials and staff to understand the
                      department’s strategy and processes for managing IT. Officials within the
                      DHS OCIO described the current IT management environment and how it
                      is evolving. We interviewed senior leadership to understand the division
                      of roles and responsibilities related to developing and implementing
                      department-wide IT management. Additionally, we met with the heads of
                      operations within the Enterprise Business Management Office to discuss
                      the implementation of DHS MD 0007.1 and related processes including
                      newly implemented acquisition and budget review processes. Finally, we
                      met with the heads of the major OCIO offices to obtain feedback on their
                      roles and input to department-wide IT governance processes.

                      To assess the effectiveness of current IT management practices, we
                      conducted interviews with CIOs from the seven major operational
                      components within DHS: TSA, Customs and Border Patrol (CBP),
                      USCIS, ICE, United States Secret Service (USSS), Federal Emergency
                      Management Agency (FEMA), and USCG. The CIOs from these
                      components provided feedback on their individual IT management
                      environments, reporting relationships, and experiences with IT governance
                      bodies and processes. We also surveyed these CIOs on their current IT

     Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                               Page 34 

Appendix A
Scope and Methodology

                      management practices related to strategic planning, enterprise architecture,
                      budget authority, portfolio management, and capital investment processes.
                      We assessed responses and supporting documentation and created an
                      aggregate rating of the current status for components in each of these IT
                      management practices.

                      The data represented in the scorecard reflects the results of our audit
                      fieldwork and documentation analysis conducted in November 2007
                      through March 2008. We collected and analyzed data from a variety of
                      sources to determine the scorecard assessment for each of the IT
                      management capabilities discussed in this section. Specifically, the audit
                      team reviewed prior reports and assessments conducted by GAO, and the
                      OIG. Additionally, the audit team requested, reviewed, and analyzed
                      documentation related to the status of each capability from each of the
                      seven components and the department. To obtain department and
                      component CIO input for our assessment, we conducted a verbal survey
                      during interviews.

                      We conducted this performance audit between November 2007 and
                      February 2008 in accordance with generally accepted government auditing
                      standards. Those standards require that we plan and perform the audit to
                      obtain sufficient, appropriate evidence to provide a reasonable basis for
                      our findings and conclusions based on our audit objectives. We believe
                      that the evidence obtained provides a reasonable basis for our findings and
                      conclusions, based on our audit objectives.

                      The principal OIG points of contact for this audit are Frank Deffer,
                      Assistant Inspector General for Information Technology Audits, and
                      Richard Harsche, Director of Information Management. Major OIG
                      contributors to the audit are identified in Appendix C.




     Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                               Page 35 

Appendix B
Management Comments to the Draft Report




     Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                               Page 36 

Appendix B
Management Comments to the Draft Report




     Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                               Page 37 

Appendix C
Related Reports on DHS IT Management

DHS OIG Reports

                      Improvements Needed to DHS’ Information Technology Management
                      Structure, OIG-04-30, July 2004.
                      http://www.dhs.gov/xoig/assets/mgmtrpts/OIG_CIOReport_0704.pdf

                      USCIS Faces Challenges in Modernizing Information Technology, OIG-
                      05-41, September 2005. http://www.dhs.gov/xoig/assets/mgmtrpts/OIG_05-
                      41_Sep05.pdf

                      Emergency Preparedness and Response Could Better Integrate
                      Information Technology with Incident Response and Recovery, OIG-05-
                      36, September 2005. http://www.dhs.gov/xoig/assets/mgmtrpts/OIG_05-
                      36_Sep05.pdf

                      Challenges in FEMA’s Flood Map Modernization Program, OIG-05-44,
                      September 2005. http://www.dhs.gov/xoig/assets/mgmtrpts/OIG_05-44_Sep05.pdf

                      US Citizenship and Immigration Services’ Progress in Modernizing
                      Information Technology, OIG-07-11, November 2006.
                      http://www.dhs.gov/xoig/assets/mgmtrpts/OIG_07-11_Nov06.pdf

                      Letter Report: FEMA’s Progress in Addressing Information Technology
                      Management Weaknesses, OIG-07-17, December 2006.
                      http://www.dhs.gov/xoig/assets/mgmtrpts/OIG_07-17_Dec06.pdf

                      Information Technology Management Needs to Be Strengthened at the
                      Transportation Security Administration, OIG-08-07, October 2007.
                      http://www.dhs.gov/xoig/assets/mgmtrpts/OIG_08-07_Oct07.pdf

GAO Reports and Testimonies

                      DEPARTMENT OF HOMELAND SECURITY Formidable Information
                      and Technology Management Challenge Requires Institutional Approach,
                      GAO-04-702, August 2004. http://www.gao.gov/new.items/d04702.pdf

                      HOMELAND SECURITY Progress Continues, But Challenges Remain on
                      Department’s Management of Information Technology, GAO-06-598T,
                      March 2006. http://www.gao.gov/new.items/d06598t.pdf

                      Information Technology: DHS Needs to Fully Define and Implement
                      Policies and Procedures for Effectively Managing Investments, GAO-07-
                      424, April 2007. http://www.gao.gov/new.items/d07424.pdf

                      HOMELAND SECURITY DHS Enterprise Architecture Continues to
                      Evolve But Improvements Needed, GAO-07-564, May 2007.
                      http://www.gao.gov/new.items/d07564.pdf

     Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                               Page 38 

Appendix C
Related Reports on DHS IT Management


                      DHS: Progress Report on Implementation of Mission and Management
                      Functions, GAO-07-454, August 2007.
                      http://www.gao.gov/new.items/d07454.pdf

                      Information Technology, DHS’ Human Capital Plan is Largely Consistent
                      with Relevant Guidance, but Improvements and Implementation Steps are
                      Still Needed, GAO-07-425, September 2007.
                      http://www.gao.gov/new.items/d07425.pdf




     Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain


                                               Page 39 

Appendix D
Major Contributors to this Report



                      Information Management Division
                      Richard Harsche, Director
                      Kristen Evans, Audit Manager
                      Steve Staats, Auditor
                      Shannon Frenyea, Auditor
                      Beverly Dale, Referencer




     Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain

                                              Page 40
Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      Assistant Secretary for Policy
                      General Counsel
                      Executive Secretariat
                      Chief Information Officer
                      Deputy Chief Information Officer
                      Chief Financial Officer
                      Chief Procurement Officer
                      Director, GAO/OIG Liaison Office
                      Under Secretary for Management
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




     Progress Made In Strengthening DHS Information Technology Management, But Challenges Remain

                                              Page 41
Appendix E
Report Distribution




 Additional Information and Copies

 To obtain additional copies of this report, call the Office of Inspector General (OIG)
 at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
 www.dhs.gov/oig.



 OIG Hotline

 To report alleged fraud, waste, abuse or mismanagement, or any other kind of
 criminal or noncriminal misconduct relative to department programs or operations:

     •  Call our Hotline at 1-800-323-8603;
     •  Fax the complaint directly to us at (202) 254-4292;
     •  Email us at DHSOIGHOTLINE@dhs.gov; or
     •	 Write to us at: 

           DHS Office of Inspector General/MAIL STOP 2600 

 Attention: Office of Investigations - Hotline
           245 Murray Drive, SW, Building 410
           Washington, DC 20528.

 The OIG seeks to protect the identity of each writer and caller.
